Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




Follow-up to Detoxification Services For
        Medicaid Beneficiaries




                    JUNE GIBBS BROWN
                     Inspector General

                      NOVEMBER 1998
                       OEI-07-97-00270
                          OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Kansas City regional office prepared this report under the direction of James H. Wolf,
Regional Inspector General. Principal OEI staff included:

REGION                                                   HEADQUARTERS


Dennis Tharp, Project Leader
                            Elise Stein, Program Specialist

Tim Dold

Perry Seaton

Hugh Owens

Michael Barrett

Linda Paddock





      To obtain copies of this report, please call the Kansas City Regional Office at (816) 426-3697

          Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
                    EXECUTIVE SUMMARY

PURPOSE

To assess whether Medicaid and other State programs provide linkages for patient services
between substance abuse detoxification and follow-up treatment programs.

BACKGROUND

Detoxification and substance abuse treatment are funded federally by the Health Care Financing
Administration (HCFA) and the Substance Abuse and Mental Health Services Administration
(SAMHSA). Annually, the SAMHSA spends over $1.5 billion on substance abuse prevention and
treatment services. In addition, HCFA covers substance abuse detoxification and treatment in
most State Medicaid programs.

Substance abuse detoxification is the process through which a person who is physically dependent
on alcohol, illegal drugs, prescription medications, or a combination of these is withdrawn from
the drugs of dependence. Detoxification, the vital first step of the rehabilitative process, has
moved in some States from inpatient hospitalization settings to outpatient programs. However,
many treatment professionals expressed concerns that individuals enrolled in detoxification
programs may not receive follow-up substance abuse treatment.

We obtained information on detoxification and treatment programs through a mail survey to each
Medicaid State agency. Analysis was conducted and follow-up contacts were made to clarify
responses and to obtain additional information based on survey data.

FINDINGS

Fifteen States Report Having Formal Processes Providing Transition from Substance Abuse
Detoxification to Treatment; Thirty-two have Informal Processes

Fifteen States said they had written language addressing continuum of care in their Medicaid State
plan, Medicaid managed care contract, or the State’s quality assurance plan. Thirty-two of 35
remaining States report having informal processes to provide a transition for Medicaid
beneficiaries to move from substance abuse detoxification to substance abuse treatment programs.
Also, States without Medicaid-funded detoxification programs coordinate arrangements with
other treatment entities outside the Medicaid program to facilitate a continuum of care.

States Tailor Substance Abuse Programs to Complement Their Own Service Delivery Systems

Substance abuse programs have evolved over the years into very State-specific oriented activities,
with State directors of alcohol and drug abuse services choosing programs that they believe
function optimally in their own particular State. States utilize a variety of treatment settings and
types of staff in their Medicaid substance abuse programs to ensure that integrated systems of
care exist for Medicaid beneficiaries in their State.


                                            )))))))))))
                                                 i
States Have Limited Data on Detoxification and Treatment Activity and Outcomes

We found that States vary in their capturing of quality and performance data. Over three-fourth’s
of the States could not provide data on the average time elapsed for Medicaid beneficiaries from
discharge from a detoxification program to onset of treatment. As a result, States which do not
capture information on continuum of care linkages have little basis to assess whether beneficiaries
are receiving timely treatment services.

One-Third of States Conduct Performance Monitoring of Substance Abuse Programs

Sixteen States report having performance oversight efforts which include case record reviews and
site visits. Also, some managed care programs include performance requirements as part of their
quality assurance plans.

States Seldom Use Outpatient Settings for Detoxification Services

Only 30 percent of States employ an outpatient component for detoxification services. Five
States utilize a Medicaid outpatient detoxification component on a primary basis while another 10
States use outpatient detoxification services on an alternative or less-extensive basis. In contrast,
40 States cover Medicaid outpatient treatment programs, and 33 States have inpatient treatment
programs available. Half of the States cover both Medicaid inpatient and outpatient treatment
programs.

RECOMMENDATION

SAMHSA and HCFA Should Work With States to Develop Appropriate Performance
Measures

The SAMHSA should work with State agencies to develop performance indicators that measure
linkages from substance abuse detoxification to treatment. We believe this will help ensure that
linkages and coordination are a priority for improvement, and that Medicaid beneficiaries are not
merely engaging in detoxification without treatment.

The SAMHSA and HCFA should collaborate and encourage State Medicaid agencies to include
language regarding continuity of substance abuse services in their managed care contracts.

The SAMHSA and HCFA also should work with States to facilitate enhanced data collection on
the continuum of care. Such treatment and outcome data are essential to capture information on
what is occurring in the treatment field. This will enable reasonable conclusions to be drawn to
enhance the quality of existing programs.

AGENCY COMMENTS

Both HCFA and SAMHSA concurred with our recommendation but emphasized they cannot
ensure that States meet goals and provide treatment and outcome data. However, they expressed



                                             )))))))))))
                                                  ii
a willingness to work with States in these efforts and toward greater continuity for treatment care
following detoxification services.

The SAMHSA also suggested exploring mechanisms for shifting to greater use of outpatient
detoxification services which have been shown to be as safe and effective as, and more cost
efficient than, inpatient detoxification. We agree this issue is important and warrants further
examination. However, while our report contains a finding on the uneven use of this service
among the States, our study was not sufficient to draw conclusions on outpatient detoxification
safety and efficiency.




                                            )))))))))))
                                                 iii
                              TABLE OF CONTENTS

                                                                                                                                PAGE
EXECUTIVE SUMMARY

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


     Fifteen States Report Formal Processes from Detoxification to Treatment;

       Thirty-two have Informal Processes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


     States Tailor Programs to Complement Their Own Service Delivery Systems . . . . . . . . . . . 5


     States Have Limited Data on Detoxification and Treatment . . . . . . . . . . . . . . . . . . . . . . . . . 8


     One-Third of States Conduct Performance Monitoring . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


     States Seldom Use Outpatient Settings for Detoxification . . . . . . . . . . . . . . . . . . . . . . . . . . 9


RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


COMMENTS ON THE DRAFT REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


ENDNOTES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


APPENDICES

     A: Data on Program Features and Services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-1


     B: Services Linkages . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-1


     C: Types of Care in State Medicaid Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . C-1


     D: Types of Detoxification Services Reimbursed by Medicaid . . . . . . . . . . . . . . . . . . . . . D-1


     E: Text of HCFA and SAMHSA Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . E-1

                            INTRODUCTION

PURPOSE

To assess whether Medicaid and other State programs provide linkages for patient services
between substance abuse detoxification and follow-up treatment programs.

BACKGROUND

Detoxification and substance abuse treatment are funded federally by the Health Care Financing
Administration (HCFA) and the Substance Abuse and Mental Health Services Administration
(SAMHSA). Annually, the SAMHSA spends over $1.5 billion on substance abuse prevention and
treatment services. In addition, HCFA covers substance abuse detoxification and treatment in
most State Medicaid programs.

Substance abuse detoxification is the process through which a person who is physically dependent
on alcohol, illegal drugs, prescription medications, or a combination of these is withdrawn from
the drugs of dependence. Detoxification, the vital first step of the rehabilitative process, is
basically a mere stabilization of physiological functions. The treatment process or treatment phase
of substance abuse services is perhaps the most critical determinant of a Medicaid beneficiary’s
success. Substance abuse and mental health professionals believe that a treatment program should
be undertaken subsequent to detoxification to assist the beneficiary in making the transition from
addiction to recovery, to prevent relapses, and promote healthy alternative living skills for
Medicaid beneficiaries to more effectively deal with their addictions.

States utilize a combination of Medicaid fee for service and managed care programs in
administering their inpatient and outpatient detoxification and treatment programs. Forty States
still utilize a Medicaid fee for service program to reimburse for substance abuse detoxification
services. Ten States have a Section 1915b behavioral health waiver to specifically treat the
substance abuse population. Such waivers strictly deal with only a small subset of a State’s
Medicaid population. Also, 28 States currently have a Medicaid managed care program in place
for substance abuse detoxification services (see Appendix A).

A review of the “SAMHSA Managed Care Tracking System: State Profiles on Public Sector
Managed Behavioral Healthcare and Other Reforms” (July 1997) and various State Alcohol and
Drug Rehabilitative Services manuals suggests that treatment services are a logical, integrated
component of a continuum of substance abuse services offered to Medicaid beneficiaries in some
States. However, in other States, detoxification services and treatment services are distinctly
separate programs. Within these States, Medicaid beneficiaries may not receive substance abuse
treatment or may not receive such treatment services in a timely manner following discharge from
a detoxification program.

Treatment journals such as Psychiatric Services1 and the American Journal of Public Health2
emphasize the critical importance of substance abusers receiving immediate, follow-up treatment
services. If Medicaid beneficiaries are not linked into a treatment program right away, the
beneficiary may abandon the recovery effort. For example, Medicaid beneficiaries often present

                                           )))))))))))
                                                1
other problems in addition to their dependence on drugs or alcohol. The Medicaid substance
abuser may be having difficulties in the areas of employment, and medical and psychiatric health
as well. The presence of these factors often complicates the provision of substance abuse
treatment, and other problems, if left unattended, can provoke a relapse to substance use or abuse
even among well-motivated, abstinent individuals. Therefore, the provision of treatment services
is seen as vitally important both for the purpose of retaining beneficiaries in a treatment program
and for reducing the risk of a relapse.

Coordinating continuum of care poses a challenge in the delivery of adequate and appropriate
substance abuse services to Medicaid beneficiaries. In addition, States are increasingly relying on
managed care plans to provide behavioral health services to Medicaid populations which include
vulnerable beneficiaries who may have special health problems.3 Some States are also attempting
to “carve-out” certain populations or services from mainstream managed care plans moving them
toward other systems of care offering specialized services for individuals with particular
conditions.

Provision of Medicaid services by managed care organizations is relatively new in the delivery of
health care, especially in the field of substance abuse. To ensure accountability within Medicaid
managed care contracts and State plans, some States have adopted specific provisions to describe
substance abuse activities and services which are guaranteed to be provided as a condition of the
contract or plan. However, there are no requirements mandated by the Medicaid program on
continuum of care or linkage from detoxification to treatment.

METHODOLOGY

We mailed surveys to each Medicaid State agency to determine whether State Medicaid programs

provide for substance abuse treatment following detoxification programs. The surveys were

completed by State agency-designated respondents from various disciplines. Many States

coordinated a comprehensive response by assembling appropriate individuals from the State

Medicaid health care policy division, State department or bureau of alcohol and drug treatment

services, and a managed care division representative. Follow-up contacts were made with both

Medicaid State agencies and alcohol and drug treatment professionals for the States to clarify

responses and to obtain additional information from the 35 States that initially indicated that they

had no formal continuum of care from detoxification to treatment within their State Medicaid

coverage policies.


We collected information on the following topics: types of detoxification and treatment programs

reimbursed by Medicaid; settings and staff involved in substance abuse programs; managed care

and Medicaid fee for service; linkage of services from detoxification to treatment; traditional

hospital-based inpatient programs versus outpatient programs; waivers and

“carve-out” programs; recidivism; admission and treatment data; program expenditures; and

future programmatic concerns.





                                            )))))))))))
                                                 2
We asked States whether their substance abuse detoxification programs are provided by a
Medicaid managed care contract, and if so, whether the contract specifies that treatment follows
detoxification. We did not request nor review specific contracts. We asked States to list and
define performance indicators that apply to their States’ detoxification and treatment programs.
We requested States to identify managed care providers of detoxification and treatment services,
recidivism data, and Medicaid expenses for various drug categories. In order to determine types
of detoxification services reimbursed by the State Medicaid agencies, we had States select
placement settings based upon the American Society of Addiction Medicine (ASAM) criteria. We
obtained information based on the five generally accepted categories of patient placement criteria
promoted by ASAM.

We analyzed information from a compiled survey database to determine whether State Medicaid
programs, especially those that contract with managed care organizations, have specific
provisions for detoxification and for follow-up substance abuse treatment. We also determined if
they are incorporating substance abuse detoxification and treatment issues into writing their
managed care contracts. Since we did not review medical treatment records, we did not draw any
conclusions regarding quality of care of Medicaid recipients in the States’ substance abuse
programs.

We also conducted onsite visits in two States that offer detoxification services on an outpatient
basis to obtain in-depth material on their detoxification programs, treatment, and coverage
policies and processes. We met with directors of family services, directors of mental health and
substance abuse departments, Medicaid policy staff, Medicaid program chiefs, managed care
representatives, and directors of State bureaus of alcohol and drug treatment services.

We conducted our review in accordance with the Quality Standards for Inspections issued by
the President’s Council on Integrity and Efficiency.




                                            )))))))))))
                                                 3
                                    FINDINGS

Fifteen States Report Having Formal Processes Providing Transition from Substance Abuse
Detoxification to Treatment; Thirty-two have Informal Processes

Fifteen States said they had written language addressing continuum of care in their Medicaid State
plan, Medicaid managed care contract, State’s quality assurance plan or within other formal
agreements among State entities (See Appendix B). Ten of the 15 States employ Medicaid
managed care as part of their substance abuse detoxification programs.

Since only 15 States initially reported formal linkage or transition policies to assure continuation
of services from detoxification to treatment, we re-contacted the remaining 35 States to determine
the level of their coordination efforts. While only 15 States had formal processes to provide a
transition for Medicaid beneficiaries in moving from substance abuse detoxification programs to
treatment services, 32 of the 35 remaining States report having informal processes at various
levels in local communities to facilitate the transition from detoxification programs to treatment
programs.

Detoxification programs often refer Medicaid beneficiaries to available treatment services
programs in the State. States report that the referral to treatment programs is primarily made
before discharge from the detoxification facility. States also reported that such linkages to
treatment are immediate if there are treatment center slots available at the time. Moreover, in
some States, the treatment is part of a comprehensive plan of care (including both detoxification
and treatment), and the Medicaid beneficiary is immediately transferred to the appropriate
treatment program.

Treatment services can be provided at an inpatient treatment center, a community mental health
center, a psychiatric center, residential center, or a community based health organization.
Depending upon the assessment of the Medicaid beneficiary, it may be determined that the person
should be seen by a psychologist or licensed clinical social worker. Therefore, a beneficiary might
see a mental health professional (e.g., a psychologist) in addition to treatment at an outpatient
clinic.

Most States have Medicaid covered detoxification and treatment programs (See Appendix C).
However, in States such as Minnesota and Kansas where Medicaid does not cover substance
abuse detoxification services, they use a variety of options. For example, Minnesota counties are
required to arrange for the provision of detoxification services for anyone who requires them.
Local funds pay for detoxification services with State funds paying for some transportation costs.
In Kansas, community-based detoxification services are provided, but are not paid by Medicaid.
Other funding mechanisms which States utilize for substance abuse services include SAMHSA
treatment grants, community development block grants, and State general assistance and local
monies to treat the Medicaid population.

Also, States without Medicaid-funded detoxification programs coordinate arrangements with
other entities outside the Medicaid program to facilitate a continuum of care from detoxification
programs to treatment programs. This is not an obstacle for Minnesota or Kansas. In both these

                                            )))))))))))
                                                 4
States, planning for the treatment begins well before the beneficiary completes detoxification.

Twenty of the 35 States re-contacted mentioned community-based, local, or State-sponsored
treatment programs available in locations throughout their State. Two-third’s of these States
reported “timely” or immediate linkage to treatment, with no interruption of services. They
emphasized that the beneficiary must be compliant, noting that there is nothing they can do to
change a beneficiary’s will or decision to abstain from entering treatment. However, 7 of the
32 States having informal detoxification to treatment linkage processes expressed concerns about
fragmented services in their State, or that their State has had difficulty in the past in coordinating
a full range of services (from detoxification to treatment).

States Tailor Substance Abuse Programs to Complement Their Own Service Delivery Systems

We found that detoxification programs within the States vary widely. Each have evolved over the
years into very State-specific oriented activities. These programs also differ widely in
composition, with some programmatic changes occurring over the last few years to the States’
current configurations of inpatient and outpatient programs. There has been a general movement
towards outpatient settings for substance abuse programs, especially intensive outpatient
treatment programs. In addition, some States are moving toward outpatient detoxification
services, sometimes as part of a managed care initiative. However, inpatient detoxification
services are more common.

State bureaus of alcohol and drug abuse services oversee the coordination of substance abuse
detoxification and treatment programs within and outside of State Medicaid programs. Each
State has developed functional working relationships among various substance abuse treatment
providers and programs, despite application of different funding sources for programs. State
directors of alcohol and drug abuse services choose programs that they believe function optimally
in their own particular State. Substance abuse treatment and addiction professionals use
resources as efficiently as possible, given the constraints of various funding streams and the often
scattered programs that exist throughout many States.

Also, State bureaus provide technical assistance to local programs and oversee the delivery of
diverse treatment programs at urban and rural locations. Each provide interpretation of level of
care distinctions, assist substance abuse detoxification and treatment program providers in
determining approved reimbursement rates for the various levels of care, and may publish
administrative informational bulletins to clarify State policies and provisions.

State bureaus may assist treatment programs in determining appropriate level of care settings for
Medicaid beneficiaries who also have a mental illness. Each help to ensure that integrated systems
of care exist for all Medicaid recipients in their State, regardless of a beneficiary’s particular
substance of abuse or co-occurring health or mental health problems. Bureaus may also become
involved in transportation and access to services issues, and certification or approval of certain
treatment programs reviewed during their on-site visits.




                                             )))))))))))
                                                  5
As noted in Table 1 below, States utilize a variety of treatment settings for their State Medicaid
detoxification programs. More than half of the States indicated that both acute care hospitals and
inpatient psychiatric hospitals are the most common settings.

                                             Table 1

                            TYPES OF TREATMENT SETTINGS

                       No. Of Medicaid
                       Programs using         Type of Setting of Medicaid
                         each setting              Detox Programs
                               28              Acute care general hospital
                                                   Psychiatric hospital
                               27                     inpatient unit
                               15            Hospital outpatient department
                               15               Hospital emergency room
                               10              Addiction treatment facility
                                               Freestanding detoxification
                                9                        center
                                8                 Day hospital program
                                6               Freestanding urgent care
                                6             Social detoxification program
                                3                         Clinic
                                1               Home health care agency
                                1               Regional treatment center

States vary in their usage of different types of placement criteria in determining which categories
of Medicaid beneficiaries should receive particular kinds of detoxification services. The American
Society of Addiction Medicine (ASAM) has established levels of settings for adult patients in need
of detoxification. Thirty-six States said that their substance abuse detoxification setting most
closely resembles the ASAM category of “medically managed intensive inpatient detoxification”
(See Appendix D). Many of these States utilize other categories of placement settings or a
mixture of inpatient and outpatient detoxification settings. Ten States use clinically managed
residential detoxification. (See Appendix D, pages D-4 and D-5, for an explanation of the five
generally accepted categories of patient placement criteria published by ASAM.)




                                           )))))))))))
                                                6
States identified many types of staff who participate in their State’s Medicaid detoxification
programs. While a physician is utilized in 84 percent of the States, Table 2 below identifies
various medical professionals and social workers who function as participants in the detoxification
process.

                                               Table 2

               PARTICIPANTS IN THE DETOXIFICATION PROCESS

                        Treatment
                        Professionals                 # of States
                        Physician, not including
                        psychiatry                    42 States
                        Registered nurse              37 States
                        Psychiatrist                  36 States
                        Licensed practical nurse
                        (LPN)                         30 States
                        Psychologist                  27 States
                        Certified alcohol/drug
                        counselor                     23 States
                        Licensed clinical social
                        worker                        22 States
                        Degreed social worker
                        (e.g., MSW)                   20 States
                        Physician assistant           18 States
                        Non-licensed counselor        11 States
                        All hospital staff               5 States
                        Acupuncturist                    3 States

Another critical distinction among States is the numerous care settings that may exist within their
Medicaid detoxification programs. States reported that they commonly use the following
categories: inpatient hospitalization - 42 States; outpatient hospitalization - 13 States; clinical
services - 11 States; and rehabilitation - 9 States.

Also, some States use multiple categories, and one State indicated it uses all these types of
categories for Medicaid reimbursement. This variety among States may hinder the capturing of
consistently reliable data on detoxification programs.


                                              )))))))))))
                                                   7
States Have Limited Data on Detoxification and Treatment Activity and Outcomes

We found that States vary in their capturing of quality and performance data, whether reimbursed
by Medicaid fee for service or part of a managed care program. Over three-fourth’s of States
could not provide data on the average time elapsed for Medicaid beneficiaries from detoxification
discharge to onset of treatment. Among 11 States that responded to a question on waiting times
for Medicaid covered treatment, elapsed waiting time from detoxification to enrollment into a
treatment program averaged 4.9 days, ranging from 1 to 30 days.

Of the 28 States with managed care programs, 23 States responded they did not know whether
managed care substance abuse detoxification services are less costly than providing these services
through Medicaid fee for service. Only 5 of the 28 States said that Medicaid managed care for
substance abuse detoxification is less costly than Medicaid fee for service.

Some respondents said that detoxification programs are expected to refer Medicaid beneficiaries
to treatment, but no one oversees or collects data on this function. We also heard that
detoxification programs are indeed referring Medicaid beneficiaries to available treatment
programs, but it is up to the beneficiary to oversee their individual recovery. Only 16 States
reported that they have case management to monitor a beneficiary’s progress. Twelve of those 16
States had managed care programs (See Appendix A).

Only 15 States were able to provide information on Medicaid expenditures for detoxification for
fiscal year 1996. Some States did not have management information systems to break out
admission data by drug, and only two States had information on numbers of Medicaid
beneficiaries who were admitted for detoxification and subsequently enrolled into a treatment
program.

States which do not capture information on continuum of care linkages have little basis to assess
whether beneficiaries are receiving timely treatment services, or even if the initial referral was
adhered to or heeded. As a result, State departments or bureaus of substance abuse services may
be unaware of the overall effectiveness of their substance abuse program services.

Only seven States reported recidivism data. The average recidivism rate was 47 percent covering
a range of 23 percent to 93 percent (23%, 27%, 28%, 40%, 50%, 70%, and 93% were the
responses from the 7 States) of Medicaid beneficiaries readmitted for detoxification services
within one year. This figure from the seven States is consistent with information from the 1997
Drug Abuse Treatment Outcomes Study commissioned by the National Institute of Drug Abuse
which found that between 40 to 50 percent of beneficiaries entering drug treatment have prior
treatment experience. Five of the seven States reported the following breakout of known
recidivism rates by episodic categories:

        !      45 percent of beneficiaries were readmitted 1 - 2 times
        !      17 percent of beneficiaries were readmitted 3 - 5 times
        !      15 percent of beneficiaries were readmitted more than 5 times



                                           )))))))))))
                                                8
One-Third of States Conduct Performance Monitoring of Substance Abuse Programs

Survey responses indicate that 16 States conduct quality assurance performance oversight efforts. 

These include case record reviews and site visits by the States’ departments or bureaus of alcohol

and drug abuse programs. Also, some of the managed care programs have their own performance

requirements listed in their quality assurance plans. These performance requirements may include

engaging beneficiaries in the treatment process after being discharged from inpatient

detoxification, reducing recidivism rates of beneficiaries, and increasing the number of Medicaid

beneficiaries served.


States which have performance indicators are able to demonstrate results in several areas. Some

of these areas include: beneficiaries are abstinent/drug-free at termination of the program;

reduction of use of the primary abuse substance; referral to alcohol and drug treatment or

continued treatment; employability improvement or academic improvement of beneficiaries;

beneficiaries are not being arrested during treatment or not driving under the influence;

pregnant women abstinent 30 days before delivery; and beneficiaries are experiencing continued

abstinence at regularly-checked intervals (e.g., one month, three months, six months, one year). 


States with performance requirements have sobriety maintenance goals to monitor beneficiaries’

continued periods of abstinence or reduction of drug use. In addition, two States have specific

programs and another two States are implementing programs to follow pregnant and post-partum

women through their rehabilitation. 


States Seldom Use Outpatient Settings for Detoxification Services

Some States appear to be limited by what they can provide under Medicaid reimbursement
provisions. For example, a State Medicaid agency may historically reimburse only for inpatient
detoxification. Geographical considerations also influence the delivery of detoxification and
treatment services. Two States report having large outlying rural areas where managed care is
neither practical nor cost-feasible. In these States, Medicaid fee for service may be used for
substance abuse services or in distinct geographic areas only. In addition, a State may only offer
Medicaid detoxification to adults under emergency circumstances. Other States use the inpatient
detoxification component primarily for acute cases, and some offer inpatient detoxification in
exceptional circumstances, such as the Medicaid beneficiary who has an accompanying illness or
is pregnant. Nearly all (44 States) offer some form of Medicaid inpatient care for detoxification.

According to analysis of State responses, only five States (Georgia, Maryland, Massachusetts,
South Carolina and Vermont) have moved from a primarily hospital-based (i.e., inpatient)
detoxification program to State detoxification programs where outpatient detoxification is a
standard choice. Another 10 States utilize outpatient detoxification on an alternative or less
extensive basis. However, each State continues to offer Medicaid inpatient detoxification services
when medical conditions require a medically-managed or medically-monitored inpatient
detoxification.




                                            )))))))))))
                                                 9
Maryland and Vermont have covered outpatient detoxification services for Medicaid recipients for
15-20 years. Massachusetts moved to managed care programs about six years ago, opening up
many different types of detoxification alternatives, including various outpatient programs.
Georgia has offered outpatient detoxification services provided by Community Mental Health
Centers for the past four years, with their State mental hospitals discontinuing inpatient
detoxification treatment in 1994. However, inpatient detoxification is still available in acute care
hospitals when conditions warrant. South Carolina began offering outpatient detoxification
services in 1997.

Forty States cover Medicaid outpatient substance abuse treatment compared to 33 States that
cover Medicaid inpatient treatment. Half of the States cover both inpatient and outpatient
treatment programs. In three States, Medicaid does not pay for substance abuse treatment
services except through the Early Periodic and Screening Diagnosis and Treatment program for
children under the age of 21. Also, a few States provide inpatient treatment only when the
Medicaid beneficiary presents a co-occurring psychiatric illness or diagnosis; otherwise, an
outpatient setting is appropriate for the remaining Medicaid beneficiaries.




                                            )))))))))))
                                                10
                       RECOMMENDATION

Whether in established programs covered by Medicaid, Federal grants, or State and local funding,
States find it very difficult to capture extensive information in the areas of treatment completion,
linkage from detoxification to treatment, sobriety maintenance, and recidivism. This is
particularly apparent with substance abuse beneficiaries who move to and from programs and are
not required to report progress in their recovery or lack of recovery. Therefore, to bridge the
gaps in performance information and to enhance cost effective detoxification and treatment, we
recommend that:

SAMHSA and HCFA Should Work With States to Develop Appropriate Performance
Measures

The SAMHSA should work with State agencies to develop performance indicators that measure
linkages from substance abuse detoxification to treatment. We believe this will help ensure that
linkages and coordination are a priority for improvement, and that Medicaid beneficiaries are not
merely engaging in detoxification without treatment.

The SAMHSA and HCFA should collaborate and encourage State Medicaid agencies to include
language regarding continuity of substance abuse services in their managed care contracts.

The SAMHSA and HCFA also should work with States to facilitate enhanced data collection on
the continuum of care. Such treatment and outcome data are essential to capture information on
what is occurring in the treatment field. This will enable reasonable conclusions to be drawn to
enhance the quality of existing programs.

AGENCY COMMENTS

We received comments on the draft report from HCFA and SAMHSA. The full text of their
comments is included in Appendix E.

Both HCFA and SAMHSA concurred with our recommendation but emphasized they cannot
ensure that States meet goals and provide treatment and outcome data. However, they expressed
a willingness to work with States in these efforts and toward greater continuity for treatment care
following detoxification services.

The SAMHSA also suggested exploring mechanisms for shifting to greater use of outpatient
detoxification services which have been shown to be as safe and effective as, and more cost
efficient than, inpatient detoxification. We agree this issue is important and warrants further
examination. However, while our report contains a finding on the uneven use of this service
among the States, our study was not sufficient to draw conclusions on outpatient detoxification
safety and efficiency.




                                            )))))))))))
                                                11
                                 ENDNOTES

1
 "Outcome of Patients in A Veterans Affairs Ambulatory Detoxification Program,” Psychiatric
Services, February 1997 (Vol. 48, No. 2), pp. 200 - 203.
2
 "Alcohol and Drug Use, Abuse, and Dependence among Welfare Recipients,” American Journal
of Public Health, October 1996 (Vol. 86, No. 10), pp. 1450 - 1454.
3
 "Negotiating the New Health Care System: An Analysis of Contracts between State Medicaid
Agencies and Managed Care Organizations,” Center for Health Policy Research and the Center
for Health Care Strategies. © Center for Health Policy Research, George Washington University,
February 1997.




                                          )))))))))))
                                              12
              APPENDIX A





STATES WITH SUBSTANCE ABUSE MANAGED CARE

DETOXIFICATION PROGRAMS HAVE LIMITED DATA

         ON FEATURES AND SERVICES





                 )))))))))))
                    A-1
  STATES WITH SUBSTANCE ABUSE MANAGED CARE

  DETOXIFICATION PROGRAMS HAVE LIMITED DATA

           ON FEATURES AND SERVICES



  Managed           Use        Patient        Case       Have       Capture
   Care         Performance   Placement       Mgt.    Follow-up/   Recidivism
   States        Indicators    Criteria       Svcs.    Aftercare     Data

Arizona             X            X             X          X
Colorado
Connecticut
Delaware                                       X
Georgia             X
Hawaii                           X             X
Illinois            X
Iowa                             X             X          X            X
Maryland            X                          X          X            X
Massachusetts       X            X             X                       X
Missouri            X
Nebraska                                       X
Nevada                           X
N. Hampshire        X
New Mexico                       X             X
New York                         X             X          X
No. Dakota                                     X
Ohio
Oklahoma
Pennsylvania
R. Island           X
So. Carolina        X
So. Dakota
Tennessee                        X             X          X
Texas                            X             X          X            X
Utah
Vermont             X            X
Wisconsin           X            X
TOTALS              11           11            12         6            4




                                )))))))))))
                                   A-2
      APPENDIX B





LINKAGES AND CONTINUUM OF CARE

    ARRANGEMENTS OF STATES





            )))))))))))
               B-1
                        LINKAGES AND CONTINUUM OF CARE

                            ARRANGEMENTS OF STATES



    Basis for Linkage                                  States
    Within the State’s Medicaid Plan for services     Missouri*
    Expressly written in the Medicaid managed         Maryland*
    care contract                                     Ohio*
                                                      Oregon
                                                      Rhode Island*
                                                      South Carolina*
    Within a quality assurance plan mandated by       Arizona*
    the managed care contract                         Illinois*
                                                      Massachusetts*
    Within the State’s general quality integrity or   Alaska
    quality assurance plan                            Illinois (also within contract’s quality plan)
                                                      Maine
                                                      South Carolina (also in managed care plan)
                                                      Wyoming
    Utilization management contractor ensures         Florida
    link between hospitals and State substance
    abuse/mental health authorities
    Linkage of services is assured by the Division    Georgia*
    of Mental Health, Mental Retardation, and
    Substance Abuse Standards
    The Behavioral Health Organizations are           Tennessee*
    required to provide medically necessary
    services

*
    States with Medicaid Managed Care detoxification programs.




                                                )))))))))))
                                                   B-2
       APPENDIX C





MEDICAID LEVELS OF CARE COVERING

       DETOXIFICATION AND

 TREATMENT PROGRAMS BY STATE





             )))))))))))
                C-1
                              MEDICAID LEVELS OF CARE COVERING DETOXIFICATION

                                     AND TREATMENT PROGRAMS BY STATE




                                                                                                             Linkage of Detox       Managed Care
              Medicaid I/P Detox   Medicaid O/P   Medicaid I/P            Medicaid O/P   Medicaid Managed   to Treatment within   Detox Services Less
STATES
                                      Detox        Treatment               Treatment       Care Detox            Medicaid          Costly than FFS

ALABAMA               X                                                        X

ALASKA                X                 X              X                       X                                    X

ARIZONA               X                                X                                        X                   X

ARKANSAS              X                                X

CALIFORNIA                              X                                      X

COLORADO              X                                X                       X                X                                         X

CONNECTICUT           X                 X              X                       X                X

DELAWARE              X                                X                                        X

FLORIDA               X                                                        X                                    X

GEORGIA               X                 X              X                       X                X                   X

HAWAII                X                 X              X                       X                X

IDAHO                 X                                X                       X

ILLINOIS              X                                X                       X                X                   X

INDIANA               X                 X                                      X

IOWA                  X                                X                       X                X                                         X

KANSAS                                                                         X

KENTUCKY

LOUISIANA             X                                                        X




                                                           )))))))))))
                                                                 C - 2

                                                                                                          Linkage of Detox      Managed Care
                Medicaid I/P   Medicaid O/P   Medicaid I/P            Medicaid O/P   Medicaid Managed   to Treatment within   Detox Services Less
                  Detox           Detox        Treatment               Treatment        Care Detox           Medicaid          Costly than FFS
STATES

MAINE                X              X              X                       X                                    X

MARYLAND             X              X                                      X                X                   X

MASSACHUSETTS        X              X              X                       X                X                   X                     X

MICHIGAN             X                                                     X

MINNESOTA                                                                  X

MISSISSIPPI          X                             X

MISSOURI             X                             X                       X                X                   X

MONTANA              X                                                     X

NEBRASKA             X                             X                       X                X

NEVADA               X                             X                                        X

NEW HAMPSHIRE        X                             X                       X                X

NEW JERSEY           X              X              X                       X                                                          X

NEW MEXICO           X                             X                                        X

NEW YORK             X                             X                       X                X

N. CAROLINA          X                                                     X

N. DAKOTA            X                             X                                        X

OHIO                 X                                                     X                X                   X                     X

OKLAHOMA             X                             X                       X                X

OREGON                                                                     X                                    X

PENNSYLVANIA         X                             X                       X                X

RHODE ISLAND         X              X              X                       X                X                   X

S. CAROLINA          X              X              X                       X                X                   X




                                                       )))))))))))
                                                             C - 3

S. DAKOTA          X                             X                                        X

                                                                                                        Linkage of Detox      Managed Care
              Medicaid I/P   Medicaid O/P   Medicaid I/P            Medicaid O/P   Medicaid Managed   to Treatment within   Detox Services Less
STATES          Detox           Detox        Treatment               Treatment       Care Detox            Medicaid          Costly than FFS

TENNESSEE          X              X              X                       X                X                   X

TEXAS              X              X              X                       X                X

UTAH               X                                                     X                X

VERMONT            X              X              X                       X                X

VIRGINIA

WASHINGTON         X                             X                       X

W. VIRGINIA        X                             X                       X

WISCONSIN          X                             X                       X                X

WYOMING            X                                                     X                                    X

TOTALS            44              15            33                       40               28                  15                    5




                                                     )))))))))))
                                                           C - 4

                 APPENDIX D





TYPES OF DETOXIFICATION SERVICES REIMBURSED
        BY STATE MEDICAID PROGRAMS

  (using American Society of Addiction Medicine categories)




                         )))))))))))
                            D-1
              TYPES OF DETOXIFICATION SERVICES1 REIMBURSED
                       BY STATE MEDICAID PROGRAMS

                                                                                               Other kinds of
                    O/P Detox     O/P Detox w/   Clinically                     Medically        Medicaid-
                   w/o extended     extended      managed       Medically        managed        reimbursed
                      onsite         onsite      Residential   monitored I/P   intensive I/P       Detox
STATES              monitoring     monitoring      Detox          Detox            Detox         programs

ALABAMA                                                                             X

ALASKA                                               X              X

ARIZONA                                                                             X               X2

ARKANSAS                X                                                           X               X3

CALIFORNIA              X

COLORADO                                                                            X

CONNECTICUT                            X             X              X               X               X4

DELAWARE                X              X             X              X               X               X5

FLORIDA                                                                             X

GEORGIA                                X                            X               X

HAWAII                  X                                                           X

IDAHO                                                               X

ILLINOIS                                                                            X

INDIANA                 X                                           X               X

IOWA                                                                X               X

KANSAS

KENTUCKY

LOUISIANA                                                                           X

MAINE                                                X                              X

MARYLAND                X              X                                            X

MASSACHUSETTS                          X             X              X               X

MICHIGAN                                                                            X

MINNESOTA

MISSISSIPPI                                                         X

MISSOURI                                                            X               X

MONTANA                                                                                             X6

NEBRASKA                                                                            X

NEVADA                                                                              X

NEW HAMPSHIRE                                                                       X

NEW JERSEY                             X                                            X

NEW MEXICO                                           X                              X




                                            )))))))))))
                                               D - 2

                                                                                                             Other kinds of
                               O/P Detox     O/P Detox w/      Clinically                     Medically        Medicaid-
                              w/o extended     extended         managed       Medically        managed        reimbursed
                                 onsite         onsite         Residential   monitored I/P   intensive I/P       Detox
                               monitoring     monitoring         Detox          Detox            Detox         programs
    STATES

    NEW YORK                                                                      X               X

    N. CAROLINA                                                                                   X               X7

    N. DAKOTA                                     X                                               X

    OHIO                                                                          X               X

    OKLAHOMA                                                                      X

    OREGON                                                                                        X

    PENNSYLVANIA                                                   X              X               X

    RHODE ISLAND                   X                               X              X               X

    S. CAROLINA                    X              X                X              X               X

    S. DAKOTA                                                                     X

    TENNESSEE                                                                                                     X8

    TEXAS                          X                                              X

    UTAH                                                                                          X

    VERMONT                        X              X                X              X               X

    VIRGINIA

    WASHINGTON                                                                                    X

    W. VIRGINIA                                   X                                               X

    WISCONSIN                                                                                     X

    WYOMING

    TOTALS                        10              10               10             19              36            7 others

1
    American Society of Addiction Medicine categories of services, as identified in pages D-4 and D-5.

2
    Medically necessary inpatient detoxification in an acute care general hospital.

3
    Rehabilitative services for persons with mental illness.

4
    Community clinics.
5
    Delaware has outpatient detox w/o monitoring; outpatient detox w/ monitoring; clinically-managed detox;
         and medically-monitored detox through managed care only. Medically-managed intensive inpatient
         detoxification is through both Medicaid fee for service and Medicaid managed care.
6
    Inpatient hospital four-day detoxification.
7
    Outpatient services such as intensive outpatient and day hospital are reimbursed when provided through
          a community mental health center.
8
    The Medicaid (Tenncare) program does not directly reimburse for any detox service. The behavioral health
         organizations have the latitude to reimburse for any service they choose.




                                                       )))))))))))
                                                          D-3
)))))))))))
   D - 4

)))))))))))
   D - 5

            APPENDIX E





            AGENCY COMMENTS


  HEALTH CARE FINANCING ADMINISTRATION

SUBSTANCE ABUSE AND MENTAL HEALTH SERVICES
              ADMINISTRATION




                 )))))))))))
                    E-1
)))))))))))
   E - 2

)))))))))))
   E - 3

)))))))))))
   E - 4

)))))))))))
   E - 5

)))))))))))
   E - 6

